          Office of the Inspector General
 Corporation for National and Community Service

                     Semiannual Report to the Congress
                                       for the period
                    October 1, 1999 - March 3 1,2000
                                     Fiscal Year 2000
                                  Semiannual Report No. 1




As required by the Inspector General Act of 1978, as amended, this report describes our activities
and accomplishments for the first half of the fiscal year. Section 5 of the Act requires that the
Corporation's Chief Executive Officer submit this report to the Congress and the Corporation's
Board of Directors within 30 days of its receipt.
                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................i

                                                                                                                                   ..
IG ACT REPORTING REQUIREMENTS .............................................................................11

AUDIT SECTION
    Financial Management .........................................................................................................    1
    Procurement Management ...................................................................................................4
    Grant Management and Oversight .......................................................................................8
    Audit Resolution ................................................................................................................11


INVESTIGATIONS SECTION .................................
                                                       ..........................................................
                                                                                                               15

REVIEW OF LEGISLATION AND REGULATIONS ........................................................-18

TABLES

    Table I               Inspector General Reports with Questioned Costs ...................................
                                                                                                           19
    Table I1              Inspector General Reports with Recommendations
                          That Funds Be Put To Better Use .............................................................20
    Table I11             Summary of Audits with Overdue Management Decisions .....................21
    Table IV              Reports Described in Prior Semiannual Reports
                          Without Final Action ...............................................................................22
    Table V               Status of Recommendations on Corporation Management Issues ............24
                           EXECUTIVE SUMMARY
AUDIT SECTION                                          needs to be more comprehensive and include
                                                       all assessable units (page 2).
During this semiannual reporting period, OIG
issued fourteen audit reports, including the           Procurement Management
report on the audit of the Corporation's 1999
financial statements and our final report on the       OIG audited costs claimed by the contractor
Corporation's Action Plan for financial                responsible     for    administering     the
management and improvement. We began                   Corporation's health care benefits program.
efforts to audit the Corporation's state               The audit resulted in questioned costs in
commissions and issued pre-audit survey                excess of $7 million (page 4).
reports for six. Summaries of all audit reports
issued during this period are on pages 1               INVESTIGATIONS SECTION
through 14.
                                                       During this semiannual reporting period we
Financial Management                                   received and processed 48 Hotline calls,
                                                       opened 21 investigative actions, and
Our audit of the Corporation's fiscal year             completed 25 investigative actions. We
1999 financial statements resulted in an               referred eight matters to the Department of
unqualified opinion on the Corporation's               Justice for prosecution or civil enforcement
Statement of Financial Position at September           (Page 17).
30, 1999; however, the auditors were not able
to render an opinion on the Statement of               Guilty pleas in two investigations this period
Operations and Changes in Net Position or the          resulted in a prison sentence and restitution
Statement of Cash Flows for the fiscal year.           for a former AmeriCorps sponsor's Executive
Five areas of the Corporation's financial              Director; and in probation, restitution and
operations were cited as materially weak               forced community service for a former
(Page 1).                                              ArneriCorps Member (page 15).

As requested by Congress, OIG reviewed the             A referral to management involving
Corporation's "Action Plan" for improving its          Corporation employees backdating purchase
financial management operations. OIG's sixth           requests in an attempt to obligate and
and final report on the Action Plan (issued            ultimately expend fiscal year 1998 hnds
December 1, 1999) identified several areas in          resulted in management suspending a
which the Corporation needs to improve its             supervisor for 5 days without pay (page 16).
planned corrective actions, including its lack
of a cost accounting system, which would               A referral to a state commission following our
allow it to track expenditures of earmarked            discovery of various forms of misconduct by
appropriated funds. The report also noted that         grant recipient staff resulted in termination of
the Corporation was without a comprehensive            the AmeriCorps grant and the grant recipient
set of Corporation-wide policies and                   not receiving reimbursement for $50,000.00 in
procedures, and that the self-assessment               questionable claims (page 16).
component of its management control plan

                                                   i                  FYOO Semiannual Report No. I
             IG ACT REPORTING REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act of
1978, as amended, to the specific pages in the report where they are addressed.


   Requirement                                                                               Page

 Section 4 (a)(2)     Review of legislation and regulations                                    18

 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the          1 - 17
                      administration of Corporation programs and operations
 Section 5 (a)(2)     Recommendations with respect to significant problems,                  1 - 17
                      abuses, and deficiencies found in the administration of
                      Corporation programs and operations
 Section 5 (a)(3)     Prior significant recommendations on which corrective action         22 and 24
                      has not been completed
 Section 5 (a)(4)     Matters referred to prosecutive authorities                              17

 Section 5 (a)(5)     Summary of instances where information was refused                   None this
                                                                                            period

 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value of          13
                      questioned costs and recommendations that funds be put to
                      better use
 Section 5 (a)(7)     Summary of each particularly significant report                       1 and 15

 Section 5 (a)(8)     Statistical table showing number of reports and dollar value of          19
                      questioned costs
 Section 5 (a)(9)     Statistical table showing number of reports and dollar value of          20
                      recommendations that funds be put to better use
 Section 5 (a)(10)    Summary of each audit issued before this reporting period for            21
                      which no management decision was made by end of reporting
                      period
 Section 5 (a)(l 1)   Significant revised management decisions                              None this
                                                                                             period

 Section 5 (a)(12)    Significant management decisions with which the Inspector                11
                      General disagrees




                                                ii                       FYOO Semiannual Report No. 1
                                   AUDIT SECTION
The Office of the Inspector General Audit Section is responsible for reviewing financial,
administrative, and program aspects of Corporation operations. It carries out these responsibilities by
conducting the audit of the Corporation's annual financial statements, evaluating the Corporation's
management controls, auditing Corporation operations, and auditing individual grants, contracts, and
cooperative agreements h d e d by the Corporation. All OIG audit reports are referred to Corporation
management for action or information. Additionally, the Audit Section advises the Corporation in
resolving audit recommendations. A list of the reports issued by the Audit Section during this period
can be found on page 13.


                               FINANCIAL MANAGEMENT

Audit of the Corporationfor National and Community Service's Fiscal Year 1999 Financial
Statements (OZG Audit Report Number 00-01)

The Government Corporation Control Act (3 1 U.S.C. 9101 et seq.) requires OIG to annually audit
the financial statements of the Corporation. To fulfill this requirement, OIG engaged KPMG, LLP
to audit the Corporation's fiscal year 1999 financial statements. The audit was conducted in
accordance with government auditing standards and included extensive audit procedures to
overcome known material weaknesses. As a result, KPMG was able to issue an unqualified opinion
on the Corporation's Statement of Financial Position at September 30, 1999. However, KPMG was
unable to render an opinion on the Statement of Operations and Changes in Net Position or the
Statement of Cash Flows for the fiscal year.'

The report noted that material weaknesses were reduced from eight in fiscal year 1998 to five in
fiscal year 1999. Two of the eight former material weaknesses are now classified as reportable
conditions. One has been corrected to the extent that it will be described only in our final report on
this audit, the "management letter" (OIG Report 00-382). These improvements, and the
Corporation's new accounting system, implemented during the final months of FY 1999, indicate
that the Corporation continues to make progress toward producing auditable financial reports.

However, the five areas cited as material weaknesses in fiscal year 1999 were first reported as
material weaknesses in 1996. They include: financial management and reporting, the Corporation's



 ' OIG Audit Report 00-01:"Audit of the Corporation for National and Community Service's Fiscal Year 1999
 Financial Statements."

  OIG Audit Report 00-38:"Recommended Improvements to the Corporation's Internal Controls - Fiscal Year 1999
 2

 Financial Audit Management Letter" is expected to be issued within the third quarter of FY 2000.




                                                 1                           FYOO Semiannual Report No. I
                                                                                                    A UDITS
general control en~ironment,~   grants management, net position reporting, and fund balance with
Treasury. The integrity of data in the National Service Trust and matters related to the Corporation's
new accounting system's controls and reports were cited as reportable conditions. The report
includes 30 recommendations for corrective action.

The Report on Compliance with Laws and Regulations repeats two areas of non-compliance with
laws and regulations: the Corporation's substantial non-compliance with Federal financial systems
requirements during the majority of fiscal year 1999; and the Corporation's practice to carry over
grant funds when renewing grants that is not always in compliance with appropriation laws related
to the use of National and Community Service Act funds.

We provided the Corporation management with a copy of the report for review and comment. In
the Corporation's response, the Chief Executive Officer disagreed with nearly all of the audit
findings, including the auditors' opinion.

Review of the Corporationfor National and Community Service Action Plan (OIG Audit
Report Number 00-13)

In our sixth and final report in compliance with requirements established in the House of
Representatives Conference Committee Report accompanying PL 105-276 to review and comment
on the Corporation's plan and progress in regard to the expenditure of the $3,000,000 in funds
earmarked for financial management reforms and urgent program administration needs, OIG
reported that, as of August 21, 1999, several significant tasks have been achieved, such as the
conversion to a new accounting system (Momentum) and the implementation of a document imaging
capability for the National Service Trust. However, the report also identified several areas where
the Corporation needs to improve its planned corrective actions. The most significant of these
include:

        The Corporation lacks a cost accounting system to track actual expenditures against the funds
        allocated to Action Plan activities in accordance with the Corporation's fiscal year 1999
        appropriation. A cost accounting system would also be beneficial to the Corporation in
        producing meaningful financial statements and to report on its performance by program
        activity as required under the Government Performance and Results Act.




  3
   Control environment factors include commitment to competence, management philosophy and operating style,
  organizational structure, and assignment of authority and responsibility. The control environment sets the tone of an
  organization, influences the level of control consciousness, and provides the discipline and structure of an
  organization.




                                                      2                              FYOO Semiannual Report No. I
                                                                                       A UDITS

       The system and users documentation for the National Service Trust imaging system is
       insufficient to enable the Corporation to effectively maximize the use of the imaging
       capability of the Trust.

       The documentation maintained by the Corporation for management accountability and
       control events, such as decisions made and actions taken to complete Action Plan tasks, is
       not always adequate to support task completion.

       A comprehensive set of Corporation-wide policies and procedures needs to be completed in
       order for Corporation personnel to effectively and efficiently perform their duties in
       accordance with management directives.

       The self-assessment component of the Corporation's management control plan needs to be
       more comprehensive and to be performed for all assessable units.

       A Chief Information Officer needs to be added to the Corporation management team to
       provide leadership in assessing Information Technology issues.

In its response to the report, the Corporation cited several of its findings and indicated general
agreement with them. However, with respect to the report's 33 recommendations for management
improvements, the Corporation responded:

       "The draft report makes several recommendations, some of which have been
       previously identified in other audit reports. We agree with many of these
       recommendations, and disagree with others. In the FY 2000 Action Plan and as part
       of the audit resolution process, we will address those recommendations we agree
       with, and provide the Office of the Inspector General our rationale for those
       recommendations with which we disagree."

OIG had not received information on the Corporation's rationale for those recommendations with
which it disagrees. Further, as indicated in Table V of this report, 3 1 of the recommendations remain
open as of March 3 1,2000.




 In January 2000, the Corporation appointed a Chief Information Officer.



                                                   3                       FYOO Semiannual Report No. 1
                                                                                     A UDITS

                          PROCUREMENT MANAGEMENT

During fiscal year 1998 OIG audited the Corporation's procurement operations (OIG Audit Report
98-24, Audit of the Corporation 's Procurement and Contracting Processes and Procedures). That
audit revealed material weaknesses in the Corporation's award, monitoring, and oversight of its
contracts and cooperative agreements. The number, nature, and significance of the audit's findings
indicated that the Corporation's procurement process is vulnerable to fraud, waste, and abuse.
Because of the nature of the reported deficiencies, OIG began a series of audits of the Corporation's
individual contracts and cooperative agreements. These audits are intended to assess whether the
costs are allowable, adequately supported, and charged in accordance with the terms of the contract
or training and technical assistance agreements, and applicable laws and regulations. Audits
performed during this reporting period reveal continuing issues with contract oversight and resulted
in excess of $7 million in questioned costs.

Audit of Corporation for National and Community Service Contract No. 95-743-1005 with
Outsourced Administrative Systems, Inc. (OIG Audit Report Number 00-21, issued on
January 6,2000)

PricewaterhouseCoopers, LLP, under contract to the Office of Inspector General, audited
$20,232,535 in claimed costs for heath care benefits paid on behalf of the Corporation for National
Service and for administrative costs incurred during the period from October 1, 1994 through
September 30, 1998, by Outsourced Administrative Systems, Inc. under CNS Contract
No. 95-743-1005. The audit included tests to determine whether costs reported to the Corporation
were documented and allowable in accordance with the terms and conditions of the contract.

        Health Care Claims Audit Results

PricewaterhouseCoopers' statistical sampling and other tests revealed, among other things, that
OASYS:

      did not perform coordination of benefits investigations as required by the contract;

      did not perform third party liability investigations as required by the contract;

      inconsistently and inaccurately applied pre-certification penalties;

      paid for medical procedures related to pre-existing conditions that should not have been paid;

      paid claims for ineligible members; and




                                              4                          FYOO Semiannual Report No. 1
                                                                                   A UDITS
     did not have adequate inventory controls for claims documentation.

PwC identified $3,820,799 of extrapolated overpayment monetary errors and $1,349,612 of
extrapolated underpayment monetary errors resulting from these deficiencies.

       Administrative Costs Audit Results

The firm also audited the administrative invoices submitted and paid under the contract and
questioned $2,209,436 of administrative costs billed, primarily because OASYS lacked adequate
records to support administrative costs claimed. As a result of this work, PwC identified several
internal control deficiencies including:

      OASYS did not have formal policies and procedures related to its cost accounting practices
      or controls in place to ensure the proper recording of labor to cost objectives;

      OASYS did not adjust submissions for final overhead rates that differ from the billed
      overhead rate; and

      OASYS did not have accounting staff trained in the Federal Acquisition Regulation or Federal
      Cost Accounting Standards requirements.

   OASYS Computer Systems Review Results and Other Internal Control Matters

PwC's audit procedures included review of the three main systems for processing and recording data
related to the contract. As a result of this work, PwC identified additional internal control
deficiencies, including:

      OASYS did not have adequate procedures in place to ensure the security of its data center;
      and

      OASYS did not have adequate segregation of duties within both OASYS's core claims
      processing systems and its accounting system.

We provided a draft report to OASYS and the Corporation for review and comment. OASYS,
through its attorneys, responded to the draft and disagreed with a majority of the findings and
questioned costs. In its response the Corporation stated that it had reviewed the draft but did not
have specific comments.




                                             5                         FYOO Semiannual Report No. I
                                                                                       AUDITS
Evaluation of the Corporation's Oversight and Monitoring of the Cooperative Agreement
with the National Association of Child Care Resource Referral Associations
(OIG Audit Report Number 00-04)

OIG engaged Emst & Young, LLP to evaluate and report on the Corporation's oversight and
monitoring of its child care benefits program, which is administered by the National Association of
Child Care Resource Referral Associations under a cooperative agreement (CA94TTPDC001). The
review covered the Corporation's oversight and monitoring practices during the period June 1994
through September 1999.

The auditors concluded that the Corporation must strengthen the oversight and monitoring of the
child care benefits program. The conditions leading to this conclusion included:

       the Corporation has not established comprehensive policies or performed sufficient
       procedures necessary to oversee and monitor its cooperative agreement with NACCRRA;

       the Corporation does not obtain and maintain sufficient information to analyze the costs of
       child care; and

       the Corporation has not required NACCRRA to provide all financial and performance reports
       required by the cooperative agreement.

The report discusses these conditions in detail and provides other information related to the child
care benefits program. In responding to a draft of this report, the Corporation stated that it had
reviewed the draft but did not have specific comments.

Audit of Corporationfor National and Community Service Contracts No. CNCS-94-004
and 97-743-1006 with Aguirre International (OIG Audit Report Number 00-02)

Cotton & Company, LLP, under contract to the Office of the Inspector General, audited the amounts
claimed by Aguirre International under Contract No. CNCS-94-004 and 97-743-1006. The audit
covered the costs claimed during the period from October 1, 1994 to May 3 1, 1999. The
Corporation awarded Contract No. CNCS-94-004 for the period October 1,1994, to November 30,
1998. The Corporation awarded Contract No. 97-743-1006 for the period September 26, 1997, to
September 30,2002. The audit included tests to determine whether costs reported to the Corporation
were documented and allowable in accordance with the terms and conditions of the respective
contracts.

The auditors questioned $7,279 (less than one percent) of costs claimed under the two contracts.
However, $293,010 of indirect costs for 1997 and 1998 are unresolved. Aguirre International
claimed indirect costs based on the provisional indirect cost rates in its negotiated indirect cost rate


                                               6                          FYOO Semiannual Report No. I
                                                                                        A UDITS
agreement, dated November 19, 1998, with the U.S. Agency for International Development (AID),
its cognizant Federal agency. These rates are not finalized and, as a result, the claimed indirect costs
are subject to revision.

The auditors also found a material weakness in Aguirre International's internal control structure
related to training costs. Aguirre International bills costs related to some software training courses
attended by its employees directly to Corporation and other Government contracts. Aguirre
International uses these software packages on other contracts and to perform indirect functions, and
its employees can reasonably be expected to use the software on other direct or indirect activities.
Accordingly, employee training costs related to the use of these software packages should be treated
as indirect costs.

In its response to a draft of the audit report, Aguirre International disagreed with the questioned
costs. The Corporation's response stated that it had reviewed the draft but did not have specific
comments.

Audit of Corporationfor National and Community Service Cooperative Agreement
No. 96CA000001 with Walker & Company, LLP (OIG Audit Report Number 00-03)

Cotton & Company, LLP under contract to the Office of the Inspector General, audited the amounts
claimed by Walker & Company, LLP under Cooperative Agreement No. 96CA000001. The audit
covered the costs claimed during the period from May 28,1996 to April 30,1998, the period of the
agreement. The audit included tests to determine whether costs reported to the Corporation were
documented and allowable in accordance with the terms and conditions of the agreement.

The auditors questioned $276 per diem amounts claimed under the cooperative agreement that were
above the allowable Federal Travel Regulation limits. The auditors also found that Walker &
Company, LLP did not limit requests for cash advances to its immediate cash needs.

The auditors cited two material weaknesses in Walker & Company, LLP's internal control structure.
First, Walker & Company, LLP does not have adequate timekeeping procedures. In their review of
140 employee time sheets, the auditors noted that nine did not contain supervisory approval; seven
were not signed by the employees; and corrections on 26 of the reports were not initialed by the
employee or supervisor. Second, Walker & Company, LLP does not have adequate procedures
related to travel expense reports. In their review of 32 employee travel expense reports, the auditors
noted that six did not contain supervisory approval, corrections on four of the reports were not
initialed by the employee or supervisor; and one was not signed by the employee.

In its response to a draft of the report Walker & Company, LLP disagreed with the findings. In its
response, the Corporation stated that it had reviewed the draft but did not have specific comments
at this time.


                                                7                          FYOO Semiannual Report No. 1
                                                                                          A UDITS

                     GRANT MANAGEMENT AND OVERSIGHT

The Corporation awards National and Community Service Act (NCSA) and Domestic Volunteer
Service Act (DVSA) grants to state and local governments, state commissions, institutions of higher
education, and other not-for-profit organizations, Grantees are required, among other things, to
expend funds only for allowable costs and to provide periodic reports to the Corporation to
demonstrate programmatic and financial compliance with the terms of the respective grant
agreements. The Corporation is responsible for ensuring that grantees comply with applicable laws
and regulations related to the administration of grant awards, including those related to Federal cash
management requirements.

The Audit Section performs both audits of the Corporation's oversight of grantees and audits of
specific grants to assess whether reported costs were allowable under Federal regulations and
whether grantees complied with the terms and conditions of the award. Each of our reports on
Corporation grants contains recommendations for correcting the deficiencies identified in the reports.
Typically, the recommendations are for the grantees to reimburse questioned costs and to establish
and implement policies and procedures to prevent future instances of non-compliance and improve
internal controls.

State Commission Pre-Audit Surveys

The Corporation for National and Community Service awards grants and cooperative agreements
to state commissions, nonprofit entities, tribes and territories to assist in the creation of full and part
time national and community service programs. Currently, in accordance with the requirements of
the National and Community Service Act, the Corporation awards approximately two-thirds of its
AmeriCorps Staternational h d s to state commissions. The state commissions in turn b d , and are
responsible for the oversight of, subgrantees that execute the programs.

State commissions play an important role in the oversight of AmeriCorps Staternational programs
and expenditures, and the Corporation has indicated that it intends to give state commissions even
greater responsibility. However, the Corporation lacks a management information system that
maintains comprehensive information on its grants, including those to state commissions and their
subgrantees. Moreover, although the Corporation began state commission administrative reviews
in 1999, the Corporation has not carried out a comprehensive, risk-based program of programmatic
oversight and monitoring of state commissions or their subgrantees. It is also unlikely that
AmeriCorps programs are subject to compliance testing as part of state-wide audits under the Single
Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The pre-audit surveys are designed to provide



                                                 8                           FYOO Semiannual Report No. I
                                                                                        A UDITS
a preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including ArneriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds.

OIG will use the pre-audit survey information to select state commissions for audits over the next
several years. For each survey, OIG issues a report communicating the results and making
recommendations for improvement at the commission. In each report OIG has also recommended
that the Corporation follow up with the commission to determine that appropriate corrective actions
are put into place to address the conditions reported and that the Corporation consider the conditions
in its oversight and monitoring. OIG will issue a report to Congress and the Corporation
summarizing pre-audit survey results and findings after issuance of final reports for the first 18 state
commission pre-audit surveys.

Field work has been completed at 24 state commissions, and as of March 3 1,2000, OIG had issued
final pre-audit survey reports for six state commissions including Tennessee, Pennsylvania, West
Virginia, Missouri, Virginia and New Hampshire. Recommendations directed toward improvement
at state commissions occur most often in the categories of fiscal administration and monitoring and
evaluation of subgrantees.

Audit of the Corporationfor National and Community Service Grant Numbers 34OAl67/Ol& 02;
339AO4l/l6 & 1 7; and 336AOlYl7 & 18 With the Health Association of Niagra County, Inc.
(OIG Audit Report Number 00-05)

We engaged Leonard G. Birnbaum and Company to audit the Corporation's grants to Health
Association of Niagra County, Inc. Under these grants, HANCI established a Retired and Senior
Volunteer Program and a Senior Companion Program. The audit covered costs claimed during the
period from April 1, 1997, to June 30, 1999. The audit disclosed several compliance issues,
including:

        HANCI did not obtain the necessary prior approval from the Corporation before making
        budget revisions on the Retired and Senior Volunteer Program;

        Federal Cash Transactions Reports for the Senior Companion Program were not always
        submitted on a timely basis; and

        HANCI did not submit all progress reports for the RSVP program on a timely basis.

We also questioned costs totaling $22,085 (less than two percent of total claimed costs), primarily
because HANCI did not have an after-the-fact labor distribution system to charge an employee's
time who worked on two separate programs.



                                               9                           FYOO Semiannual Report No. I
                                                                                     A UDITS
In addition to the audit of claimed costs, Leonard G. Bimbaum and Company evaluated the
monitoring and oversight of these grants by the Corporation. The auditors reported that oversight
and monitoring procedures performed by Corporation staff included:

       reviewing and analyzing financial information and progress reports submitted by HANCI;

       providing periodic training sessions to HANCI staff during statewide and regional
       conferences; and

       performing periodic site visits.

However, the auditors found that improvements should be made in the Corporation's guidance
regarding documenting the procedures performed and areas addressed during a site visit to a grantee,
and in the Corporation's policies for ensuring that program personnel are complying with grant
monitoring guidance.

In its response, the Corporation stated that it had reviewed the report but did not have specific
comments. HANCI, in responding to the report, did not disagree with the report's findings, and
outlined corrective actions it intended to take.

Audit of Corporation for National and Community Service Grant Award No. 95LSGVA013 to
Close Up Foundation (OZG Audit Report 00-20)

We audited the funds awarded by the Corporation to the Close Up Foundation under Grant No.
95LSGVA013. The audit covered costs ($368,890) claimed during the grant period from October
1, 1995 through December 3 1, 1998.

We questioned $9,129 of the costs claimed under the award. The majority of these costs, $8,187,
was questioned because Close Up Foundation charged textbooks to the grant at a "discounted retail"
unit price in lieu of actual costs. Further, related to the textbooks, we found that Close Up
Foundation did not comply with OMB Circular A-122, Cost Principles of Nonprofit Organizations,
which requires that costs be adequately supported. We recommended that Close Up Foundation
establish a procedure to identify and document all costs, including the costs of textbooks, in
accordance with applicable cost principles and award provisions.

In its response to the report the Close Up Foundation disagreed and stated that the textbooks in
questioned were not developed under the terms of this grant. In addition, the Close Up Foundation
stated that the Corporation agreed to purchase the textbooks at the discounted retail unit price.




                                             10                         FYOO Semiannual Report No. I
                                                                                                A UDITS

                                      AUDIT RESOLUTION

During the period October 1, 1999 through March 3 1,2000 management issued final management
decisions on four audit reports with questioned costs: Audit of Corporation Contracts with Ogilvy,
Adarns and Rinehart, OIG Report No. 99-07; Audit of Corporation Contract with R.O.W. Sciences,
OIG Report No. 99-08; Audit of Corporation for National Service Contracts No. 96-743-1002 and
No. 97-743-1005 With Advanced Systems Technology Corporation, OIG Report No. 99-1 1; Audit
of Corporation for National and Community Service Grant Award No. 95LSGVA013 to Close Up
Foundation, OIG Report No. 00-20. The table below summarizes the Corporation's management
decisions in terms of allowed and disallowed costs.



              Management Decisions on OIG Reports With Questioned Costs
                  During the period October 1,1999 - March 31,2000



I                                                        Federal Questioned Costs*

                                                    Allowed                 Disallowed          Total

                                                              (Dollars in thousands)




     Unsupported                                    $0        0%             $97       100%         $97


     *The amount allowed represents costs claimed by a grantee and questioned in an audit that management
     subsequently determined were allowable. The amount disallowed represents questioned costs sustained
     by management.




Other Pending Management Decisions

In November 1999, OIG held an audit resolution meeting with Corporation officials. Discussions
included the Corporation's draft proposed management decision for OIG Report No. 99-09, Audit
of the Corporation for National and Community Service Contract No. 95-743-1009 With
Biospherics, Inc. The Corporation proposed to allow $737,919 of the $739,458 of questioned costs


                                                   11                              FYOO Semiannual Report No. I
                                                                                   A UDITS
in the report, through ratification based on documentation provided by the auditee after the audit
fieldwork and comment period for the draft report had concluded. OIG analyzed the documentation
proposed by the auditee and proposed by the Corporation as support for costs questioned in the OIG
audit. OIG found that problems with the documentation were numerous and varied. In one instance,
the Corporation proposed to accept purchase orders instead of invoices as support to accept a
questioned cost. In another instance, the Corporation proposed to accept price quotes to support a
questioned cost of over $100,000, pending receipt of other documentation. Finally, the Corporation
was ready to accept a lease schedule (not an invoice) in support of a questioned cost of some
$96,000. The Corporation has been reviewing the matter since November.

In January 2000, OIG received the Corporation's proposed management decision for OIG Audit
Report No. 99-08, Audit of Corporationfor National and Community Service Contract No. 97-743-
1002 With R.O. W. Sciences, Inc. The audited contract required advance approval from the
Corporation for the use of subcontractors. R.O.W. billed $97,000 to the Corporation for work
performed by individuals employed by temporary employment agencies. The auditors determined
that these costs constituted the use of subcontractors and lacked the necessary prior approval.
Therefore, the $97,000 was questioned in the audit report. OIG disagreed with the Corporation's
decision to subsequently allow the $97,000 in questioned costs. OIG concurred with the
management decision only to the extent that it disallowed $64,000 in other questioned costs.

In March 2000, the OIG received the Corporation's proposed management decision for OIG Audit
Report No. 99-04, Audit of the Congressional Hunger Center Cooperative Agreement No.
96ADNDC099. OIG specifically disagrees with the Corporation's decision to allow $95,999 of
questioned costs based on the provision of documentation provided by the auditee. Per the
Corporation's proposed management decision, the documentation had been warehoused during the
time of the audit and had not been reviewed by the auditors. OIG remains skeptical of
documentation that emerges under such circumstances. The auditees were notified in advance of the
audit. Auditors were on site for an extended period of time, and shared their findings with the
auditee during an exit conference. The auditee had a 30-day period in which to respond to the draft
audit report, and did in fact make a response that was appended to the report. At no time were the
above-noted documents produced to OIG or its auditors, nor was there ever a mention of their
existence or possible existence.




                                             12                        FYOO Semiannual Report No. 1
                                                                                         A UDITS


                 AUDIT REPORTS ISSUED DURING THE PERIOD
                  OCTOBER 1,1999 THROUGH MARCH 31,2000
                                                                            Federal        Federal
Report   Issue                                                              Dollars        Dollars
Number   Date                           Report Name                        Questioned    Unsupported


                                                                                (Dollars in thousands)


                  Audit of the Corporation for National and Community
                  Service's Fiscal Year 1999 Financial Statements
                  Audit of Corporation for National and Community
                  Service Contract No. CNCS-94-004 and 97-743-1006
                  with Aguirre International
                  Audit of Corporation for National and Community
                  Service Cooperative Agreement No. 96CA000001 with
                  Walker & Company, LLP
                  Evaluation of the Corporation's Oversight and
                  Monitoring of the Cooperative Agreement with the
                  National Association of Child Care Resources Referral
                  Associations
                  Audit of Corporation for National and Community
                  Service Grant Numbers 340A167101 & 02; 339A041116
                  & 17; 336A015117 &18 with the Health Association of
                  Niagra County, Inc.
                   Pre-Audit Survey of the Tennessee Commission on
                   National and Community Service

                   Review of the Corporation for National and Community
                   Service Action Plan

                   Pre-Audit Survey of the Pennsylvania Commission on
                   National and Community Service
                   Pre-Audit Survey of the West Virginia Commission on
                   National and Community

                   Pre-Audit Survey of the Missouri Community Service
                   Commission
                   Pre-Audit Survey of the Virginia Commission on
                   National and Community Service




                                            13                            FYOO Semiannual Report No. I
                                                                                         A UDITS

             AUDIT REPORTS ISSUED DURING THE PERIOD
         OCTOBER 1,1999 THROUGH MARCH 31,2000 - CONTINUED
                                          -             --       --



                                                                            Federal        Federal
Report     Issue                                                            Dollars        Dollars
Number     Date                           Report Name                      Questioned    Unsupported


                                                                                (Dollars in thousands)

00-19     2/9/00    Pre-Audit Survey of the New Hampshire Commission                --              --
                    on National and Community Service
         11/29/99 Audit of Corporation for National and Community
                  Service Grant Award No. 95LSGVA013 to Close Up
                  Foundation
          1/6/00    Audit of the Corporation for National and Community
                    Service Contract No. 95-743-1005 with Outsourced
                    Administrative Systems, Inc.

                    TOTAL




* Less than $1,000 in questioned costs.




                                              14                          FYOO Semiannual Report No. I
                    INVESTIGATIONS SECTION

We began this reporting period with 29 previously opened investigative actions. During the
reporting period we opened 21 new investigative actions and closed 25. We had 25 investigative
actions pending at the end of this reporting period.


               HIGHLIGHTS OF INVESTIGATIONS CLOSED
                  DURING THIS REPORTING PERIOD

False Certificationsfor AmeriCorps Members Nets Prison Sentence and Restitution

We finalized an investigation we opened after receiving allegations that AmeriCorps Members
at the Kenosha Volunteer Action Center, Kenosha, Wisconsin, at the direction of an ArneriCorps
sponsor's executive director, falsified documents to reflect they had accumulated enough service
hours to qualify for the AmeriCorps end-of-service award.

The executive director was indicted by a Federal Grand Jury in Milwaukee, Wisconsin, on six
counts of violating Title 18, Section 1001, United States Code (False Statements). The
indictment came after the Grand Jury heard evidence that the executive director falsely certified
that AmeriCorps Members in the program she supervised had completed 1,700 service hours
when in fact they had not. The executive director later pled guilty in Federal District Court to
one count of violating Title 18, Section 1001, United States Code (False Statements), and was
sentenced to serve four months in a federal penitentiary, followed by a period of home detention
not to exceed six months, and three years of supervised probation. She was also ordered to pay
restitution of $14,868.00, to pay a fine of $2,000.00, and to pay a special assessment of $50.00.
(96-024)

False Service Log & Forgery Result in Probation, Restitution, and Forced Communiw
Service

We finalized an investigation we opened after receiving information indicating an ArneriCorps
Member falsified her time sheets. Our investigation found evidence that the AmeriCorps
Member, while assigned to provide "respite" services for a caregiver to the elderly and ill,
falsified her Client Service Log by recording service hours that she did not serve. We also found
evidence that the AmeriCorps Member forged the signature of the primary caregiver on one
occasion and the signature of a secondary caregiver on two occasions.

The United States Attorney declined to prosecute due to the low dollar amount. The Florida
State's Attorney accepted this matter for prosecution and the Amencorps Member was



                                              15                     FYOO Semiannual Report No. I
                                                               INVESTIGA TIONS
subsequently arrested. The AmeriCorps Member was offered and accepted Pre-Trial
Intervention. The AmeriCorps Member was ordered to serve a six-month probation period, to
perform 50 hours of community service that cannot be associated with elderly or ill individuals,
to pay restitution of $417.96, to pay $240.00 for costs of supervision, and to meet other
requisites established by the Florida Department of Corrections. If the ArneriCorps Member
meets all of the conditions of the Pre-Trial Intervention by the conclusion of the six-month
probationary period, the Florida State's Attorney will dismiss the forgery charge. (99-020)

Reimbursement Disallowed and Grant Terminated

We finalized an investigation we began after receiving allegations that staff at an AmeriCorps
program funded by the New York State Commission, and administered by the Health
Association of Niagara County, Inc., had engaged in various forms of misconduct. The
information we developed indicated that the program may have submitted false reports
concerning AmeriCorps Member hours, activities, and other matters to the New York State
Commission, and may have misused grant-funded assets. While we found no conduct that was
accepted for prosecution, we did find questionable management and financial practices. As a
result of our investigation and a review of the Health Association of Niagara County, Inc.'s
expenditures, the New York State Commission and the Health Association of Niagara County,
Inc., reached a written agreement which included the Health Association of Niagara County, Inc.,
not being reimbursed for over $50,000.00 in questionable claims and termination of the
AmeriCorps grant. (97-029)

Documents Backdated - Prosecution Declined - Management Suspends Director

We finalized an investigation where we found evidence that a Director of a Corporation Service
Center, a Budget Analyst at the Service Center, and a Training Coordinator at the Service Center,
backdated three separate purchase requests. This was apparently done in an attempt to enable
them to obligate and ultimately expend fiscal year 1998 funds beyond the date the funds were
available for obligation.

An Assistant United States Attorney with the United States Attorney's Office having prosecutive
jurisdiction reviewed this matter and opined that a criminal violation of Title 18, Section 1001,
United States Code (False Statements), may have occurred. Although he felt a criminal violation
occurred, he declined to prosecute in lieu of administrative action by the Corporation.

We referred the matter to Corporation management and they suspended the Director fiom duty
for 5 days without pay because of his involvement in backdating the procurement documents and
directing subordinate employees to backdate procurement documents. (99-004)




                                             16                      FYOO Semiannual Report No. I
                                                                                        INVESTIGA TIONS


                          STATISTICAL SUMMARY OF INVESTIGATIONS


    Opened and Closed

    Number of Cases Open at Beginning of Reporting Period..............................
-            --        -p                                        -




    Number of New Cases Opened During This Reporting Period .......................

    Number of Cases Closed During This Period With
     . .         . .
    Significant Findings.........................................................................................

    Number of Cases Closed During This Period With
        . .         . .
    No Significant Findings...................................................................................

    Total Cases Closed This Reporting Period ......................................................

    Number of Cases Open at End of Reporting Period........................................

    Referred

    Number of Cases Referred for Prosecution During
    This Reporting Period ......................................................................................

    Number of Cases Accepted for Prosecution During
    This Reporting Period......................................................................................

    Number of Cases Declined for Prosecution During
    This Reporting Period......................................................................................

    Number of Cases Pending Prosecutive Review...............................................




                                                                17                              FYOO Semiannual Report No. I
    REVIEW OF LEGISLATION & REGULATIONS
Section 4(a)(2) of the Inspector General Act requires the Office of the Inspector General to
review and make recommendations about existing or proposed legislation and regulations
relating to the Corporation's programs and operations. OIG recommendations are to address
the impact of legislation and regulations on the economy and efficiency of the administration
of the Corporation's programs and operations. OIG is also to make recommendations
concerning the impact of legislation and regulations on the prevention and detection of fraud
and abuse in programs and operations administered or financed by the Corporation.


                  REVIEW OF CORPORATION-PROPOSED
                            REGULATIONS

The Government in the Sunshine Act requires Federal agencies to conduct certain business
meetings in a manner that is open to the public. There are specific exceptions to this
requirement, and particular procedures to follow for closing and documenting a meeting
pursuant to an exception. Under the terms of the Sunshine Act, the Corporation is required to
promulgate regulations implementing the Sunshine Act. During a prior reporting period,
OIG advised the Corporation of this requirement. During the current reporting period, the
Corporation promulgated a final rule implementing the Sunshine Act.




                                            18                    FYOO Semiannual Report No. 1
                           TABLE I
       INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS


                                                                                     Federal Costs
                                                             Number            Questioned     Unsupported

                                                                                  (Dollars in thousands)

       For which no management decision had
       been made by the commencement of the                       8
       reporting period
       Which were issued during the reporting
       period                                                    2

       Subtotals (1 plus 2)                                      13

       For which a management decision was
       made during the reporting period                           5

       (i) dollar value of disallowed costs

       (ii) dollar value of costs not disallowed                 -

       For which no management decision had
       been made by the end of the reporting
       period (3 minus 4)
                                                                 22


6.     Reports with questioned costs for which                     5             $1,482
       no management decision was made within
       six months of issuance
*In OIG Audit Report 98-24, Audit of the Corporation S Procurement and Contracting Operations, we
questioned $547 thousand in costs claimed under Corporation contracts. However, as requested by OIG,
the Corporation's Management Decision on thls audit did not address $539 thousand of the questioned costs
due to a pendmg civil recovery action under the False Claims Act by the cognizant U.S. Attorney's Office.

**As discussed in the audit resolution section, a Management Decision was received on February 3,2000
for OIG Audit Report 99-08, Audit of Corporation Contract No. 95-743-1009 with R.O. W.Sciences, Inc.
 OIG does not concur with the Corporation's allowance, by ratification, of $97 thousand of the total of
nearly $162 thousand in Federal questioned costs.




                                                19                        FYOO Semiannual Report No. I
                         TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                      Number           Dollar Value


                                                        (Dollars in thousands)

A.   For which no management decision had been
     made by the commencement of the reporting
     period


B.   Which were issued during the reporting period


C.   For which a management decision was made
     during the reporting period

     (i) dollar value of recommendations that were
         agreed to by management
         based on proposed management action

         based on proposed legislative action


     (ii) dollar value of recommendations that were
          not agreed to by management

D.   For which no management decision has been
     made by the end of the reporting period
      Reports for which no management decision was
      made within six months of issuance




                                      20                FYOO Semiannual Report No. 1
                        TABLE I11
  SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                             Federal               Mgmt        Status as of
Report                                                       Dollars              Decision     March 31,
Number                         Title                        Questioned             Due*           2000

                                                       (Dollars in thousands)

          Audit of Congressional Hunger
          Center Cooperative Agreement No.                       $ 233
          96ADNDCO99
          Audit of Corporation Contract
          No. 97-743-1002 with R.O.W.
          Sciences, Inc.
           Audit of Corporation Contract
           No. 95-743-1009 with Biospherics,
           Inc.
           Audit of Corporation Contract
           No. 95-001 with TvT Associates, Inc.
           Audit of the Corporation's Oversight
           and Monitoring of the Health
           Benefits Program
           Audit of Corporation Contract with
           GS Tech, Inc.
           Total

* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
Management Decision must be made within six months of the final report issuance.



1 - Management Decision is overdue.
2 - A Management Decision was received on February 3,2000 for OIG Audit Report 99-08. However,
    OIG did not concur with the Corporation's allowance, $97 thousand, of the Federal questioned costs.
3 - A Management Decision was received for OIG Audit Report 99-04. OIG concurs to the extent that
    the management decision disallows costs questioned in the audit. However, the management decision
    allows questioned costs based on the provision of additional documentation by the auditee, and OIG
    disagrees with this portion of the management decision.




                                                21                              FYOO Semiannual Report No. I
                            TABLE IV
              REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                  REPORTS WITHOUT FINAL ACTION

                                                       Final
Report                                        Date     Action         Status Of
Number                 Title                 Issued    Due*          Final Action

         Audit of Oregon Youth                        12/23/97   Overdue - Final
         Conservation Corps                                      action has not
                                                                 been reported to
                                                                 OIG
         Review of the National Alliance              411 1/98         1.    .,
         for Veteran Family Service
         Organizations
         Review of Pre-award Financial
         Assessment of Grant Applicants
         Audit of the Navajo Nation
         Audit of the Youth Volunteer
         Corps of America
         Auditability Assessment of the
         Corporation's FY97 Statement of
         Financial Position*"
         Audit of the Corporation's FY97
         Statement of Financial
         Position**
         Recommended Improvements to
         the Corporation's Internal
         Controls (Management Letter)**
         Audit of Congressional Hunger
         Center Cooperative Agreement
         No. 96ADNDC099
         Evaluation of the Corporation's
         Monitoring and Oversight of
         Cooperative Agreement Awarded
         to Congressional Hunger Center



                                        22               FYOO Semiannual Report No. 1
                           TABLE IV - CONTINUED
                  REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                      REPORTS WITHOUT FINAL ACTION

                                                                            Final
Report                                                       Date           Action            Status Of
Number                        Title                         Issued          Due*             Final Action

99-06 Review of the Cornoration's                         12/23/98        12/23199 Owrdue - Final
      Liability for Post-service                                                         action has not
                                                                                         been reported to
      Benefits Related to Former                                                         OIG
      Commission on National and
      Community Service Grants
99-1 1 Audit of Corporation for                           3/l 9/99         3119/00
                                                                                               .. ..
       National Service Contracts with
       Advanced Systems Technology
       Corporation


* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a fmal action must
be completed within 12 months of the report's issuance.

** The Corporation has incorporated its corrective action on these auditability and financial statement audit
reports into its "Action Plan," its primary guide for corrective action. OIG agreed with this approach but
noted that, because these findings and recommendations were ftrst reported in fiscal year 1996, corrective
actions should already have been implemented, and are, in fact, overdue.




                                                   23                          FYOO Semiannual Report No. I
                                  TABLE V
                      STATUS OF RECOMMENDATIONS ON
                     CORPORATION MANAGEMENT ISSUES

                                                         Number of      Corrective
                                                     Recommendations     Action           Open
                                                        in Reports*    Completed**   Recommendations

Corporation Financial Management

 Audit of the Corporation's Fiscal Year 1999
 Financial Statements (OIG Audit Report 00-
 0 1, issued March 3 1,2000)

 Review of the Corporation Action Plan (OIG
 Audit Report 00- 13, issued December 1,1999)

 Audit of the Corporation's Fiscal Year 1998
 Financial Statements and Management Letter
 (OIG Audit Reports 99- 12 and 99-24 issued
 April 9, 1999 and June 30,1999,
 respectively)

 Audit of the Corporation's Procurement and
 Contracting Operations (OIG Audit Report
 98-24, issued September 30, 1998)

 Audit of the Corporation for National and
 Community Service Statement of Financial
 Position, September 30, 1997 (OIG Audit
 Report 99-01, issued October 9, 1998)

 Recommended Improvements to the
 Corporation's Internal Controls (OIG Audit
 Report 99-02, issued November 17, 1998)

 Auditability Survey & Follow-up Reports
 (OIG Audit Reports 96-38, 97-09,97-29, and
 98-23)

Contract Oversight and Monitoring***

  Audit of Corporation Contract No. 95-43-
  1005 with Outsourced Administrative
  Systems, Inc. (OIG Audit Report 00-21,
  issued January 6,2000)




                                                24                         FYOO Semiannual Report No. I
                         TABLE V CONTINUED   -
                    STATUS OF RECOMMENDATIONS ON
                   CORPORATION MANAGEMENT ISSUES

                                                      Number of      Corrective
                                                  Recommendations     Action           Open
                                                     in Reports*    Completed**   Recommendations

Audit of Corporation for National and
Community Services Contract No. CNCS-
94-004 and 97-743- 1006 with Aguirre
International (OIG Audit Report 00-02,
issued November 30,1999)

Letter Report on Review of ETR Audits that
Cover Corporation for National Service
Cooperative Agreement Number CA95-06
(OIG Audit Report 99- 19, issued May 25,
1999)

Audit of Corporation for National and
Community Service Contract No. 97-743-
1001 with GS Tech, Inc. (OIG Audit Report
99- 18, issued August 27, 1999)

Audit of Corporation for National Service
Contracts No. 96-743-1002 and No. 97-743-
1005 with Advanced Systems Technology
Corporation (OIG Audit Report 99- 11,
issued March 19, 1999)

Audit of Corporation for National and
Community Service Contract No. 95-001
with TvT Associates, Inc. (OIG Audit
Report 99-10, issued August 2, 1999)

Audit of Corporation for National and
Community Service Contract No. 95-743-
1009 with Biospherics, Inc. (OIG Audit
Report 99-09, issued May 6, 1999)

Audit of Corporation for National and
Community Service Contract No. 97-743-
1002 with R.O.W. Sciences, Inc. (OIG Audit
Report 99-08, issued June 2, 1999)




                                             25                         FYOO Semiannual Report No. I
                           TABLE V CONTINUED    -
                      STATUS OF RECOMMENDATIONS ON
                     CORPORATION MANAGEMENT ISSUES

                                                           Number of      Corrective
                                                       Recommendations     Action           Open
                                                          in Reports*    Completed**   Recommendations

 Audit of Corporation for National and                       4
 Community Service Contracts No. 93-743-
 1005 and No. 96-743-1008 with Ogilvy
 Adams & Rinehart (OIG Audit Report 99-
 07, issued July 22, 1999)

 Audit of Corporation's Oversight and
 Monitoring of the Health Benefits Program
 (OIG Audit Report 99- 15, issued September
 14, 1999)

Grant Oversight and Monitoring

 State Commission Pre-Audit Surveys issued
 during this SAR period

 Corporation Grant Numbers 340A167101 &
 02; 339A041116 & 17; 336A015117 & 18
 with the Health Association of Niagra
 County, Inc. (OIG Audit Report 00-05, issued
 December 6, 1999)

 Evaluation of the Corporation's Oversight
 and Monitoring of the National Association
 of Child Care Resource Referral Associations
 (OIG Audit Report 00-04, issued
 December 14, 1999)

 Audit of Corporation Cooperative
 Agreement No. 96CA000001 with Walker &
 Company, LLP (OIG Audit Report 00-03,
 issued November 30, 1999)

 Review of the Corporation's Liability for
 Post-Service Benefits Related to Former
 Commission on National and Community
 Service Grants (OIG Audit Report 99-06, issued
 December 23,1998)




                                                  26                         FYOO Semiannual Report No. I
                             TABLE V - CONTINUED
                        STATUS OF RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES

                                                           Number of       Corrective
                                                       Recommendations      Action             Open
                                                          in Reports*     Completed*'     Recommendations


 Assessment of AmeriCorps Service Hour                       18               14                 4
 Reporting (OIG Audit Report 98-19, issued
 August 27,1998)

 Review of Corporation Pre-Award Financial                   3                 1                 2
 Assessment of Grant Applicants (OIG Audit
 Report 98-02, issued April 27, 1998)

Audit Resolution

 OIG FY97 Semiannual Report 1 (issued                       2                 -
                                                                              1                 -
                                                                                                4
 April 30, 1997)

Total                                                       @                 168               240
*Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
Management Decision must be made within six months of the final report issuance and corrective actions
completed within one year.

**The Corporation has not implemented an audit resolution system as required by OMB Circular A-50,
Audit Resolution. Therefore, OIG assessed whether corrective actions were completed based on its
knowledge of the Corporation's operations, OIG records, and the results of OIG follow-up audits when
available.

***OIG contract oversight and monitoring audit reports repeatedly recommended that the Corporation
direct the contractor to limit its claimed costs to those allowable under the contract and under applicable
cost principles, use only labor categories identified in the contract, and follow appropriate procedures for
completing time sheets.




                                                                                                               I




                                                  27                           FYOO Semiannual Report No. I
